Follow-up Audit of Recommendations Made
for the USAID/Colombia-Financed Alternative
Development Program

Audit Report No. 1-514-04-002-P

November 12, 2003




            San Salvador, El Salvador
This page intentionally left blank.
November 12, 2003


MEMORANDUM
FOR:               USAID/Colombia Director, J. Michael Deal

FROM:              Regional Inspector General/San Salvador, Steven H. Bernstein

SUBJECT:           Follow-up Audit1 of Recommendations Made for the
                   USAID/Colombia-Financed Alternative Development Program
                   (Report No. 1-514-04-002-P)

This memorandum is our report on the subject audit.

Your comments on the draft report were considered in preparing this report. They
are included for your reference in Appendix II.

The report includes one recommendation. Since USAID/Colombia has taken
final action on the recommendation, the recommendation is closed on issuance of
this report.

Once again, thank you for the cooperation and courtesy extended to my staff
throughout the audit.




1
    This audit follows-up “Audit of the USAID/Colombia-Financed Coca Alternative Development
    Program Under the Plan Colombia Supplemental Appropriation (Report No. 1-514-02-005-P)”


                                                                                          1
This page intentionally left blank.




                                      2
Table of   Summary of Results                                                5
Contents
           Background                                                         5

           Audit Objectives                                                   6

           Audit Findings                                                     7

                  Has USAID/Colombia implemented                              7
                  Recommendation Nos. 1 and 2 from Audit Report
                  1-514-02-005-P dated January 16, 2002?

                         Output Indicator Susceptible to                      8
                         Overstatement

                  Was USAID/Colombia obligating funds under its               9
                  Alternative Development Program for authorized purposes?

           Management Comments and Our Evaluation                            10

           Appendix I – Scope and Methodology                                11

           Appendix II – Management Comments                                 15




                                                                                  3
(This page intentionally left blank.)




                                        4
Summary of   As part of its fiscal year 2003 audit plan, the Regional Inspector General/San
Results      Salvador performed an audit to determine whether USAID/Colombia
             implemented Recommendation Nos. 1 and 2 from Audit Report No. 1-514-02-
             005-P dated January 16, 2002, and to determine whether the Mission was
             obligating funds under its Alternative Development Program for authorized
             purposes (page 6).

             USAID/Colombia implemented Recommendation Nos. 1 and 2 from Audit
             Report No. 1-514-02-005-P dated January 16, 2002. Output targets were defined
             in the Mission’s performance monitoring plan, included in the agreement between
             the Government of Colombia and USAID, and attributed to program
             implementers. As of September 2003, these targets were consistent (page 7).
             Indicator definitions were consistent and timeframes were sufficiently clear and
             specific to determine how and by when outputs would be met (page 8).

             Although not directly related to the Mission’s performance on implementing the
             recommendations, one of the indicators being used to measure program outputs
             was susceptible to overstatement (page 8). A recommendation was made to
             remedy the situation by reporting disaggregated data (page 9).

             In answer to the second objective, the audit found that USAID/Colombia was
             obligating funds under its Alternative Development Program for authorized
             purposes (page 9).

             USAID/Colombia agreed with the reported finding and has committed to
             disaggregate information reported on families benefited. The Mission has taken
             final action on the recommendation, and the recommendation is closed on
             issuance of this report (page 15).



Background   Alternative development has been pursued in Colombia along with eradication and
             interdiction activities in an effort to reduce the production of poppy and coca. By
             promoting crop substitution and crop quality improvement and also by providing
             social infrastructure (roads, bridges, potable water, and health facilities), alternative
             development activities aim to entice communities to abandon illicit crop production.
             The premise behind alternative development is that it creates legal sources of
             employment and income for rural families who would otherwise grow illicit crops
             for their livelihood.

             As of June 2003, 12 organizations were involved in implementing USAID’s
             alternative development activities. The implementers included non-governmental
             organizations such as Chemonics and Associates in Rural Development as well as
             governmental organizations such as the U.S. Army Corps of Engineers and the U.S.
             Department of State.


                                                                                                    5
             In January 2002, the Regional Inspector General/San Salvador published a report
             titled “Audit of the USAID/Colombia-Financed Coca Alternative Development
             Program Under the Plan Colombia Supplemental Appropriation – Audit Report No.
             1-514-02-005-P.” The audit reported that in 2002 the alternative development
             program was not on schedule to achieve planned results, that planned program
             outputs were inconsistent between entities involved in the program, and that some
             planned outputs were not documented. The report included recommendations that:

                    1. USAID/Colombia amend its performance monitoring plan to agree with
                       the planned outputs contained in its contract with Chemonics and its
                       agreement with the Government of Colombia.

                    2. USAID/Colombia review Chemonics’ annual workplan and sub-
                       agreements to ensure that all documents use the same definitions and
                       timeframes and are sufficiently clear and specific to determine how and
                       by when outputs will be achieved.

             This audit was a follow-up on the implementation of the recommendations from the
             January 2002 report.

             At the time of the audit in January 2002, alternative development activities were
             being funded by the “Plan Colombia” supplemental appropriation. Since then,
             additional funds have been appropriated by the U.S. Congress, under the Andean
             Counterdrug Initiative. For this audit, both funding sources were considered. Total
             obligations under the Mission’s alternative development program as of June 30,
             2003, were $119.5 million.



Audit        As part of its fiscal year 2003 audit plan, the Regional Inspector General/San
Objectives   Salvador performed this audit to answer the following questions:

                •   Has USAID/Colombia implemented Recommendation Nos. 1 and 2 from
                    Audit Report No. 1-514-02-005-P dated January 16, 2002?

                •   Was USAID/Colombia obligating funds under                  its   Alternative
                    Development Program for authorized purposes?

             Appendix I contains a discussion of the audit's scope and methodology.




                                                                                              6
Audit Findings   Has USAID/Colombia implemented Recommendation Nos. 1 and 2 from
                 Audit Report No. 1-514-02-005-P dated January 16, 2002?

                 USAID/Colombia implemented Recommendation Nos. 1 and 2 from Audit
                 Report No. 1-514-02-005-P dated January 16, 2002. However, although not
                 directly related to the Mission’s performance on implementing the
                 recommendations, one of the indicators being used to measure program outputs
                 was susceptible to overstatement.

                 Recommendation No. 1 from Audit Report No. 1-514-02-005-P stated:

                           We recommend that USAID/Colombia amend its performance
                           monitoring plan to agree with the planned outputs contained in its
                           contract with Chemonics and its agreement with the Government
                           of Colombia.

                 According to that report, the output targets used by USAID/Colombia in its
                 performance monitoring plan were different from the targets included in
                 agreements with the Government of Colombia and with USAID’s only
                 implementing contractor at the time, Chemonics. Since Chemonics is no longer
                 the only implementer, comparing its target to the target in the performance
                 monitoring plan was not relevant. Instead, the sum of the targets for current
                 implementers was considered.

                 To implement the recommendation, USAID amended its agreement with the
                 Government of Colombia. As of September 2003, output targets defined in the
                 Mission’s performance monitoring plan, included in the agreement between the
                 Government of Colombia and USAID, and attributed to program implementers
                 were consistent.2 Output targets were as follows:

                     Description                                                               Planned Output
                     Licit crops supported through alternative development                      65,042 hectares
                     activities

                     Families benefited from alternative development                             80,000 families
                     activities

                     Social and productive infrastructure projects                                   610 projects


                 2
                     Targets were identical between USAID’s performance monitoring plan and the agreement with
                     the Government of Colombia. The sum of the targets attributed to USAID/Colombia’s
                     implementers either exceeded (for hectares of licit crops supported and for the number of social
                     and productive infrastructure projects) or were within 5 percent (for number of families
                     benefited) of the total performance monitoring plan target values.


                                                                                                                   7
Recommendation No. 2 from Audit Report No. 1-514-02-005-P stated:

       We recommend that USAID/Colombia review Chemonics’ annual
       work plan and sub-agreements to ensure that all documents use the
       same definitions and timeframes and are sufficiently clear and
       specific as to determine how and by when outputs will be
       achieved.

For the implementers and sub-recipients tested, output target definitions were
consistent with USAID’s performance monitoring plan. Indicator definitions
and/or scopes of work for the entities engaged in alternative development
activities described activities consistent with USAID/Colombia’s output
definitions. The scopes of work in sub-grantee or sub-contractor agreements with
USAID/Colombia’s implementers were also consistent with the Mission’s
indicator definitions.

Timeframes were sufficiently clear and specific to determine how and by when
outputs will be achieved. To support the time-phased output targets presented in
USAID/Colombia’s performance monitoring plan, the Mission prepared a
detailed projection that disaggregated output targets by indicator and by
implementing entity. In the case of fiscal year 2003, the projections were further
refined to provide targets for each quarter.

Based on values reported through June 2003 and based on the detailed projection
prepared by the Mission, reported results indicated that the alternative
development program was on schedule to meet or exceed planned output targets.
However, because of security concerns which prohibited travel to implementation
areas, the values reported by implementing parties were not verified.
Nonetheless, the monitoring and evaluation programs of three implementers were
reviewed and provided reasonable assurance that reliable values were being
reported by USAID/Colombia.           The three implementers reviewed were
responsible for the current output targets for 77 percent of the families benefited,
47 percent of the licit hectares supported, and 98 percent of the infrastructure
projects.

Output Indicator Susceptible
to Overstatement

During the course of our analysis, we noted that the 80,000 target for number of
families benefited by alternative development activities was susceptible to being
overstated.

USAID’s target for the number of families benefited by alternative development
activities was an aggregation of several sub-indicators, including the number of
families that have access to improved basic services and the number of families



                                                                                  8
benefiting from licit productive activities in coca and poppy areas. These
activities were targeted to benefit roughly 40,000 and 30,000 families,
respectively.

The susceptibility to overstate families arose from the methods used by the
Mission to count the families for each sub-indicator. Families benefiting from
licit productive activities were individually counted by specifically identifying
families who participate with USAID partners in alternative development crop
activities. Families benefiting from improved basic services were estimated based
on population figures for the areas where infrastructure projects were completed.
Overstatement would result when projects are completed in communities with
families participating in alternative development programs.3 According to
alternative development team leaders, the areas being covered by the
infrastructure and the alternative development crop activities were essentially
identical.

USAID’s Automatic Directives System 203.3.5.1.a defined validity in data
quality as data that “clearly and adequately represent the intended result.”
Overstated data does not meet the validity standard. More importantly,
individuals relying on data reported by the Mission could conclude that
alternative development activities were impacting greater numbers of families
than was actually the case.

          Recommendation        No.  1:     We      recommend       that
          USAID/Colombia disaggregate the values reported for families
          benefiting from access to improved basic services and for
          families benefiting from licit productive activities when
          reporting the number of families benefited through alternative
          development activities.

Was USAID/Colombia obligating funds under its Alternative Development
Program for authorized purposes?

USAID/Colombia was obligating funds under its Alternative Development
Program for authorized purposes.

The “Plan Colombia” supplemental appropriation stated that funds were made
available for “alternative development and other economic activities.” The
Andean Counterdrug Initiative appropriation only stated that funds were “to be
used for economic and social programs.” Neither appropriation provided explicit
definitions of what purposes were authorized for alternative development.


3
    It should be noted that the Mission maintains disaggregated targets for the number of families
    benefited.     The susceptibility for overstatement becomes an issue for reporting to
    USAID/Washington when families benefited through infrastructure projects are combined with
    families participating in alternative development activities.


                                                                                                9
             USAID/Colombia’s strategic plan provided clarity to how “alternative
             development” and “economic and social programs” would be defined, as follows:

                1. Activities to assist farmers and their families to develop licit sources of
                   income and employment.

                2. Activities to provide improved social conditions to entice rural families to
                   participate in licit activities.

             Separate from the requirements of the appropriations legislation mentioned above,
             other laws and regulations restrict USAID/Colombia’s assistance activities.
             Under the alternative development program, the Mission was not pursuing
             activities in the following restricted areas:

                1. Working in agricultural products that would compete with similar U.S.
                   grown products or establish a surplus of commodity on the world market.

                2. Providing assistance in agriculture, forestry, and livestock that would be
                   environmentally damaging.

                3. Providing assistance for family planning, military purposes, lobbying, or
                   police and prisons.

                4. Purchasing commodities or other inputs from non-U.S. or non-Colombian
                   suppliers.

                5. Contracting with non-U.S. firms for construction and engineering.

             Activities described in the scopes of work or other project descriptions were
             consistent with USAID/Colombia’s strategic plan. Activities described in the
             scopes of work were judged to not be restricted, except in the instances where the
             USAID/Colombia Mission Director waived source and origin requirements for
             some procurements and waived the restriction against projects growing African
             Palm, which competes with U.S. soybeans for producing vegetable oil.

             No expenditures for unauthorized purposes were noted in testing transactions.



Management   USAID/Colombia agreed with the reported finding and has committed to
Comments     disaggregate information reported on families benefited. The Mission has taken
             final action on the recommendation, and the recommendation is closed on
and Our
             issuance of this report.
Evaluation




                                                                                             10
                                                                                   Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted this audit in accordance
              with generally accepted government auditing standards.

              In planning and performing the audit, we assessed the effectiveness of
              USAID/Colombia’s management controls related to ensuring the following:

                 •    Consistency of planned outputs amongst the entities involved in
                      implementing alternative development activities.

                 •    Consistency of definitions and clarity of how and by when outputs will be
                      achieved.

                 •    Validity in accordance with laws and regulations of alternative
                      development activities.

              The management controls identified included a detailed description of
              performance indicators in the Mission’s performance monitoring plan, an updated
              strategic plan, a current assistance checklist, and a procedure incorporating
              reviews of invoices by cognizant technical officers.

              The alternative development program was being implemented by 12
              organizations. We conducted the audit at USAID/Colombia and at the offices of
              three implementing partners – Chemonics, Pan American Development
              Foundation, and Agricultural Cooperative Development International/Volunteers
              in Overseas Cooperative Assistance (ACDI/VOCA). Audit fieldwork was
              conducted from September 8, 2003 through September 22, 2003.

              Methodology

              To determine whether output targets were consistent between USAID/Colombia
              and the Government of Colombia, we reviewed amendments to the strategic
              objective grant agreement between the two parties and USAID/Colombia’s
              performance monitoring plan.

              To determine whether output targets were consistent between USAID/Colombia
              and its implementing partners, to determine whether output definitions and
              timeframes were sufficiently clear, and to determine whether the Mission was
              obligating funds for authorized activities; we reviewed the Mission’s performance
              monitoring plan and implementers’ scopes of work and work plans. We
              judgmentally selected implementers for review based on awarded value of their
              agreement with the Mission. Coverage included 7 of 12 implementing partners
              for approximately 93 percent of the awarded contract value. We also reviewed



                                                                                            11
scopes of work for 19 of 76 implementer sub-recipients to determine if sub-
recipient outputs supported the total output target for the implementer.

In addition to reviewing implementers’ scopes of work and work plans as
mentioned above, we also visited the offices of three implementing partners.
Implementers were chosen for visits based on the value of their agreements and
whether the implementer had started reporting outputs to USAID/Colombia. The
three sites we visited accounted for approximately 56 percent of the awarded
value. At those offices, we reviewed monitoring and evaluation plans and
randomly sampled 30 transactions from each of their general ledgers.
Transactions were evaluated to determine whether they were consistent with the
“Plan Colombia” supplemental appropriation, with the Andean Counterdrug
Initiative appropriation, and with the definition of “alternative development” as
implemented by the Mission. We also considered whether the transactions
represented activities restricted by other laws and regulations, as follows:

   1. Working in agricultural products that would compete with similar U.S.
      grown products or establish a surplus of commodity on the world market.

   2. Providing assistance in agriculture, forestry, and livestock that would be
      environmentally damaging.

   3. Providing assistance for family planning, military purposes, lobbying, or
      police and prisons.

   4. Purchasing commodities or other inputs from non-U.S. or non-Colombian
      suppliers.

   5. Contracting with non-U.S. firms for construction and engineering.

To determine the significance of our findings, we judged that for a positive
opinion the following criteria would be met:

   •   Output targets between USAID/Colombia and the Government of
       Colombia would be identical and between the Mission and implementers
       would be within 5 percent.

   •   Definitions of outputs would be consistent between USAID and its
       implementers.

   •   Statements of work and accounting transactions would be related to
       alternative development and would not be unauthorized activities (i.e.,
       military assistance, police support, or family planning).




                                                                              12
For a qualified opinion, we judged that the following would apply:

   •   Output targets between USAID/Colombia and the Government of
       Colombia would be identical and between the Mission and implementers
       would be within 15 percent.

   •   Definitions of outputs would be consistent between USAID and its
       implementers.

   •   Statements of work and accounting transactions would be for allowable
       foreign assistance activities but would not be considered related to
       alternative development. Activities would not be prohibited by regulation.

For a negative opinion, we judged that the following criteria would be met:

   •   Output targets between USAID/Colombia and the Government of
       Colombia would not be identical and between the Mission and
       implementers would not be within 15 percent.

   •   Definitions of outputs would not be consistent between USAID and its
       implementers.

   •   Statements of work and accounting transactions would not be considered
       related to alternative development and would be considered related to
       unauthorized activities (i.e., military assistance, police support, or family
       planning).




                                                                                 13
(This page intentionally left blank.)




                                        14
                                                                                          Appendix II


Management
Comments



    MEMORANDUM                                           November 6, 2003


    TO:            Steven H. Bernstein, Regional Inspector General
    FROM:          Michael Deal, Mission Director
    SUBJECT:       RIG Recommendation, Report No. 1-514-04-00X-P

    In its October 2003 report, the RIG made the following recommendation to USAID/Colombia to
    avoid overstating accomplishments:

    “We recommend that USAID/Colombia disaggregate the values reported for families benefiting
    from access to improved basic services and for families benefiting from licit productive activities
    when reporting the number of families benefited through alternative development activities.”

    The Mission agrees to disaggregate information reported on “families benefited.” USAID
    currently internally disaggregates “families benefited” by separating 1) those substituting illicit
    products for licit ones and/or those maintaining/improving already established licit crops; 2)
    those participating in the construction and/or maintenance of social infrastructure projects as well
    as those that have gained access to improved social infrastructure services (only the municipal
    population in which a particular project is completed is counted); 3) those participating in forest
    and environmental management activities; and 4) artisans receiving assistance under the
    alternative development program.

    The Mission agrees to now report on each of the above stated categories separately, as well as
    the overall cumulative figure. USAID/Colombia believes this will be an effective way of
    reflecting the overall impact of our program on Colombian families.

    Thank for the courtesy and cooperation extended to the Mission by your staff during the audit
    field work.




                                                                                                     15
